f :

•/
t

' / <*/
9

966
3fn tije Supreme Court of tfje
fHmteb States!

Cecile A. Brown,
Petitioner,
v.
Solicitor General of the United States,
Respondents.
ON WRIT OF CERTIORARI TO THE UNITED
STA TES COURT OFAPPEALS FOR THE NINTH
CIRCUIT
BRIEF APPELLANT OF PRO SE / PETITIONER
FOR DECEASED Vet. William H. Ellis IN SUPPORT
OF APPELLANT RESPECTING MOOTNESS

Party-' Cecile A. Brown, APPELLANT,
Pro se ofRecord
3222 Violet St.,
Apt. A
Alexandria, LA 71301
(318) 528-0335
browncecile@vahoo.com
Pro Se for Appellant/Petitioner

RECEIVED
SEP - 8 2021

tcmssLi

QUESTIONS PRESENTED FOR REVIEW
Whether nominal damages account for harms associated *
with past constitutional violations acknowledges that plaintiffs
have suffered real injuries from alleged violations of
fundamental rights, regardless of whether their injuries
translate into dollar amounts? Whether the government
deprived plaintiffs of their constitutional rights involve
quintessential injuries that satisfy Article III standing
requirements? Whether the long* standing role of nominal
damages play in providing concrete redress for past
constitutional injuries, and would enable governmental actors
to evade accountability for their unconstitutional policies?
Whether the government has acted rationally and arbitrarily?
Whether the government has considered relevant factors and
not considered any extraneous factors for its decision. Has the
government considered what skills will be necessary for a
person to effectively discharge the duties connected with the
post? Has the government decision been tainted by the
consideration of extraneous factors such as gender or religion,
as the case maybe? Whether the executive action can be
described as reasonable and not whether it is exactly what the
court or the judge would have chosen to do in that situation?
Judicial review of legislative action. That is when laws passed
by law-making authorities are challenged by invoking Writ
jurisdiction in such cases. The first aspect of the review is
whether the legislation violates a fundamental right? Second,
whether the legislation violates a constitutional right other
than a fundamental right? And third, relevant in the case of
delegated legislation such as the Bar Council of India rule, 1975,
which have been made under the authority granted to the Bar
Council of India by the Advocates Act. 1961 is whether the scope
of the delegated legislation under review is ultra vires i.e
whether it goes beyond the scope permitted of such delegated
legislation by statute or otherwise? The court must consider
objectively, as a matter of legality and constitutionality,
whether the legislation can be sustained? Whether the question
of constitutionality of delegated legislation itself?

1

PETITION FOR A WRIT OF CERTIORARI
TABLE OF CONTENTS
Page
Interest of Appellant/Petitioner,
1
Summary of Argument.............
2
Argument....................................
4
I.
Nominal Damages Afford Retrospective Relief
for Hard-to-Quantify Harms........................ 4
Cases Involving Nominal Damages are
II.
Ubiquitous, and Illustrate the Critical Role
Such Damages Play
in Vindicating Rights................................... 13
III.
Nominal Damages Allow Plaintiffs to Remedy
Retrospective Harms in Cases That Become
Moot on Other Grounds
20
Conclusion.........
23
Interest of Appellant...
1
2
Summary of Argument
Argument.....................
2-20
Conclusion....................
20

a)

r

ill

TABLE OF AUTHORITIES
Pages
CasesAmato v. City ofSaratoga Springs,
170 F.3d 311 (2d Cir. 1999)................................
Ashcroft v. abKidd, 563 U.S. 731 (2011)................
Ballen v. City ofRedmond,
466 F.3d 736 (9th Cir. 2006)...............................
Carey v. Piphus, 435 U.S. 247 (1978)..................... .
ChaGn v. ChaRn, 568 U.S. 165 (2013)....................
Citizens for Free Speech, LLCv. Cty. ofAlameda,
2017 WL 912188 (N.D. Cal. Mar. 8, 2017).......
City ofLos Angeles v. Lyons, 461 U.S. 95 (1983)...
City ofRiverside v. Rivera, 477 U.S. 561 (1986)...
Clarkson v. Town ofFlorence,
198 F. Supp. 2d 997 (E.D. Wis. 2002)................
Comm, for First Amendment v. Campbell,
962 F.2d 1517 (10th Cir. 1992)...........................
Crue v. Aiken, 370 F.3d 668 (7th Cir. 2004)..........
Doe v. Delie, 257 F.3d 309 (3d Cir. 2001)...............
Doe v. Par. ofSt. Tammany,
2008 WL 1774165 (E.D. La. Apr. 16, 2008).....
Douglas v. Cunningham, 294 U.S. 207 (1935)......
Elrod v. Burns, 427 U.S. 347 (1976)........................
Farrar v. Hobby, 506 U.S. 103 (1992).....................
Fehribach v. City of Troy,
412 F. Supp. 2d 639 (E.D. Mich. 2006)..............
Flanigan's Enters, v. City ofSandy Springs,

7,8
9
8
5, 6
7
10
7
5, 8
16
15
16
22
18
11
5
7, 10
15

IV

868 F.3d 1248 (llth Cir. 2017)..............................
Freenor v. Mayor & Alderman ofSavannah,
2019 WL 9936663 (S.D. Ga. May 20, 2019)........
Gill v. WhitforJ 138 S. Ct. 1916 (2018)....................
Griffith v. Butte Sch. Dist. No. 1,
244 P.3d 321 (Mont. 2010).....................................
Grimm v. Gloucester Cty. Sch. Bd.,
-- F.3d
2020 WL 5034430
(4th Cir. Aug. 26, 2020)..........................................
Jessamy v. Ebren,
153 F. Supp. 2d 398 (S.D.N.Y. 2001)...................
Jones v. Clemente,
2006 WL 782474 (D. Or. Mar. 27, 2006).............
Keup v. Hopkins, 596 F.3d 899 (8th Cir. 2010)........
Landon v. City of Flint,
2017 WL 2806817 (E.D. Mich. Apr. 21, 2017)...
Lewis v. Conti Bank Corp., 494 U.S. 472 (1990)....
McLean v. City ofAlexandria,
106 F. Supp. 3d 736 (E.D. Va. 2015)...................
Mellen v. Bunting, 327 F.3d 355 (4th Cir. 2003).....
Memphis Cmty. Sch. Dist. v. Stachura,
477 U.S. 299 (1986)..................................................
Miller v. City of Cincinnati,
622 F.3d 524 (6th Cir. 2010).................................
Mission Prod. Holdings v. Tempnology, LLC,
139 S. Ct. 1652 (2019).............................................
Morgan v Plano Indep. Sch. Dist.,
589 F.3d 740 (5th Cir. 2009) .................................
Mullenix v. Luna, 136 S. Ct. 305 (2015)....................
N. Y. State Rifle & Pistol Ass’n v. City ofNew York.,
140 S. Ct. 1525 (2020) .............................................
Ne. Fla. Chapter ofAssociated Gen. Contractors v.
City ofJacksonville, 508 U.S. 656 (1993)...........

10
11, 12
4
20

20, 21
21, 22
20
15
19
20
15
21
6
16
7
16
9
14
4

V

Nelson v. Miller,
12
2011 WL 6400524 (S.D. Ill. Dec. 19, 2011)............
18
Nelson v. Miller; 880 F.3d 868 (7th Cir. 2009)............
Norton v. City ofSpringfield,
324 F. Supp. 3d 994 (C.D. HI. 2018).........................
3, 15
Penwell v. Holtgeerts,
295 F. App’x 877 (9th Cir. 2008)..............................
19
Platt v. Moore,
2018 WL 2058136 (D. Ariz. Mar. 15, 2018)...........
10
Project Vote/Vo ting for Am., Inc. v. Dickerson,
444 F. App’x 660 (4th Cir. 2011).............................. 15, 16
Rex Trailer Co. v. United States,
11
350 U.S. 148 (1956).....................................................
Rich v. Fla. Dep’t of Corr.,
716 F.3d 525 (llth Cir. 2013)...................................
18
13
Risdal v. Halford, 209 F.3d 1071 (8th Cir. 2000)........
Rock for Life-UMBC v. Hrabowski,
594 F. Supp. 2d 598 (D. Md. 2009)..........................
15
Romanski v. DetroitEntm% LLC,
428 F.3d 629 (6th Cir. 2005)......................................
5
Sch. Dist. ofAbington Twp. v. Schempp,
374 U.S. 203 (1963).....................................................
5
Searles v. Van Bebber, 251 F.3d 869 (10th Cir. 2001)
12
Six Star Holdings, LLC v. City ofMilwaukee,
821 F.3d 795 (7th Cir. 2016)..................................... 16, 17
Soffer v. Costa Mesa,
607 F. Supp. 975 (C.D. Cal. 1985)............................
19
Spokeo, Inc. v. Robins, 136 S. Ct. 1540 (2016)............
4
Sprint Commc’ns Co. v. APCC Servs.,
554 U.S. 269 (2008).....................................................
7
Talley v. District of Columbia,

433 F. Supp. 2d 5 (D.D.C. 2006)..........................
TrewheUa v. City ofLake Geneva,

10

VI

249 F. Supp. 2d 1057 (E.D. Wis. 2003).....................
15
Utah Animal Rights Coal. v. Salt Lake City Corp.,
371 F.3d 1248 (10th Cir. 2004)...................................
16
Constitution and StatutesU.S. Const.
amd. I............................................................................... passim
amd. II ............................................................................... 13, 14
18
amd. IV ................................................................................
amd. XIV ..............................................................................
19
10
42 U.S.C. § 1988....................................................................
42 U.S.C. § 1997e(e)............................................................ 6, 21
Miscellaneous25 C.J.S. Damages § 24 (2020).........................................
6
Joseph C. Davis & Nicholas R. Reaves, The Point Isn't
Moot■ How Lower Courts Have Blessed
Government Abuse of the Voluntary-Cessation
Doctrine, 123 Y.L.J. Forum 325 (Nov. 26, 2019)...... 9, 18
NYlawyer gets paid $1.50 for civil rights victory,
N.Y. Post (Dec. 3, 2011).................................................
8
Patrick Yeagle, Springfield panhandling ordinance ruled
unconstitutional,
Ill. Times (Aug. 13, 2015).................................................. . 2

L

Reporter Citation- N/A
9* Cir./ W.A.W.D.

Decided case/No.

Reference List

In-text citation

Brown v. USA, et al., I
(June 16, 2021)

Brown v. USA, et al.,
(2021) or (Brown v.
USA, et al, 2021)

Brown v. USA, et al., 1-2
(July 29, 2021)

Brown v. USA, et al.,
(2021) or (Brown v.
USA, et al, 2021)

Brown v. USA, et al., 1-2
(July 28, 2021)

Brown v. USA, et al.,
(2021) or (Brown v.
USA, et al, 2021)

Brown v. USA, et al., 1
(June 16, 2021)

Brown v. USA, et al.,
(2021) or (Brown v.
USA, et al, 2021)

Brown v. USA, et al., 1
(June 16, 2021)

Brown v. USA, et al.,
(2021) or (Brown v.
USA, et al, 2021)

Brown v. USA, et al., 1
(June 16, 2021)

Brown v. USA, et al.,
(2021) or (Brown v.
USA, et al, 2021)

Brown v. USA, et al., 1-2
(July 28, 2021)

Brown v. USA, et al.,
(2021) or (Brown v.
USA, et al, 2021)

Brown v. USA, et al., 1*2
(July 28, 2021)

Brown v. USA, et al.,
(2021) or (Brown v.
USA, et al., 2021)

Brown v. Coughenour, et
al.,

Brown v. Coughenour
(2021) or (Brown v.
Coughenour, et al.,
2021)

21-35386

21-35383

21-35428

21-35386

21-35383

21-35383

21-35428

21-35428

C21-MJP

STATEMENT OF THE CASE

The background of the relationship between
plaintiff and defendant applicable to the case the
defendant owed a duty to the plaintiff. A duty arises when
the law recognizes a relationship between the defendant
and the plaintiff requiring the defendant to act in a
certain manner, often with a standard of care, toward the
plaintiff. A judge, rather than a jury, ordinarily
determines whether a defendant owed a duty of care to a
plaintiff, and will usually find that a duty exists if
a reasonable person would find that a duty exists
under similar circumstances. A defendant breaches such a
duty by failing to exercise reasonable care in fulfilling the
duty. Plaintiff is related to the words plaintive and
complain. You can think of a plaintiff as the person who
makes a complaint in court. Defendant is related to the
word defend. A defendant is the person who must defend
themselves against the complaints brought forward by the
plaintiff.
The incident occurred over the Board of Veteran
Appeals phone line. I was told in December of 2020 that
BVA was finished with Finality of appeal and the decision
was about to be mailed to me. This incident rolled over to
January of 2021 and I did not receive my decision. I was
told to file a lawsuit against the government because BVA
refuses to send finality decision and benefits. I was told
over the phone that VA calculations were $2 billion
dollars with $10, 000.00 monthly benefits. I have not seen
my decision or benefits and the BVA started conflict with
me and told me to sue them because their company
receives lawsuits all the time. Here I am suing because of
the failure of duty for the BVA government to send...

r

APPENDIX
APPENDIX B, E, D
REASONS FOR GRANTING THE PETITION
Pursuant to Rule 10, A state court or a United States court of
appeals has decided an important question of federal law that
has not been, but should be, settled by this Court, or has
decided an important federal question in a way that conflicts
with relevant decisions of this Court. Cases resolving clear
conflicts of law, Important or unique cases, interesting
cases.
Appellate Jurisdiction.
Article III, § 2, cl. 2, which provides that all jurisdiction not
original is to be appellate, “with such Exceptions, and under
such Regulations as the Congress shall make,” has been
utilized to forestall a decision which the congressional majority
assumed would be adverse to its course of action. 28 U.S. Code
§ 1251(a) - Original jurisdiction. STATEMENT OF THE
BASIS FOR JURISDICITION.
Jurisdiction is based on diversity of citizenship and
federal question. The amount in controversy exceeds
Two Million Dollars ($2,000,000.00). This Court has
supplemental jurisdiction over Plaintiffs’ state law
claims arising under the statutory and common law
pursuant to 28 U.S.C. § 1338(b), because those claims
are joined with substantial and related claims under
federal law. The Court also has subject matter
jurisdiction over those claims pursuant to 28 U.S.C. §
1367, because Plaintiffs’ state law claims are
interrelated with Plaintiffs’ federal claims and arise
from a common nucleus of operative facts such that the
adjudication of Plaintiffs’ state law claims with
Plaintiffs’ federal claims furthers the interest of judicial
economy.

Introduction
Concise statement of the grounds on
which jurisdiction is invoked. R. 14.1 (e). The
rule has been justified on the ground that
persons should not be encouraged to
circumvent the provisions made by a statute,
providing for a mechanism and procedure to
challenge administrative or quasi'judicial
actions taken thereunder (Union of India v.
TR Varma (AIR 1957 SC 882)). Grounds
which jurisdiction is invoked in the high
court under Article 226, claiming it can
invoke its jurisdiction under the head of any
other purpose. It could also, of course,
approach a civil court and file a civil suit
seeking appropriate reliefs against the
. government. The High Court would still
apply the principle that the contractor must
exercise that alternate equally efficacious
remedy. Therefore, the mere fact that a
claim is being made against the government
does not mean that the High Court must
exercise its jurisdiction.
Article 14, states that the state shall not
deny to any person equality before the law. It
may allege that its fundamental right under
Article 14 has been violated because the
government has unfairly discriminated
against it by paying the nine other cement
suppliers while withholding the amount due
to it. Therefore, subject to the specific facts of
a case rate, writ jurisdiction may be invoked
against private parties as well if the nature
of their activities calls for it. First, a high
court is not likely to invoke its writ
jurisdiction for the adjudication of a dispute
involving a violation of purely private
interests for which one or more alternate,
equally efficacious remedies exist in law.
Second, this is the case even if the party that
is alleged to be in the wrong is the state.
Third, a high court may invoke its
jurisdiction for the adjudication of a dispute
1

involving the violation of private rights. If, at
the same time the dispute involves the
violation of a fundamental right or the
violation of a law for which no other remedy
has been provided. This is often the case
when the party that is alleged to be in the
wrong is the state. And finally, a high court
may invoke Article 226 against a private
person if its activities are of a public nature
or they otherwise fall within the parameters
of the third proposition above. It is shown
that the authority of the law was guilty of a
breach of natural justice or acted
unreasonably. If the authority has
considered the matters which it is its duty to
consider and has excluded irrelevant
matters, its decision is not reviewable unless
so absurd that no reasonable authority could
have reached it. The judiciary must ensure
that the executive acts according to law.
I.
The burden of proving that particular
legislation is unconstitutional or ultra-virus
is a statute. The legislation carries a
rebuttable presumption of constitutionality
or legality.1
If the delegated legislation involves the
defects of substance or if the exercise of any
power will be limited by the substance of
power i.e., what the administrative authority
is empowered to do, it is called substantive
Ultra vires. It means that the delegated
legislation goes beyond the scope of authority
conferred by the parent statute or by the
constitution. It is the fundamental principle!
|of law that ra public authority cannotactf
outside the powers i.e.. ultra viresj The
doctrine refers to the extent; scope and range
of power conferred by the parent action the
concerned authority to make rules. To be
valid a rule must fulfill two conditions, they
are*
1. It must conform to the provisions of statute
under which it is framed; and
11. Substantive Ultra Vires
2. Procedural Ultra Vires
3. Substantive Ultra Vires
2

2. It must come within the scope and purview
of the rule making power of the authority
framing the rule.
If either of those conditions is not fulfilled^
the rule would be void as parliament neverl
intended to give authority to make such
Wes which are unreasonable and ultraf
vires J A delegated legislation may be held to
be invalid on the ground of substantive ultra
vires in the following circumstances.
1. Constitutionality of Parent act*
Constitutionality of parent act plays a
dominant role for delegated legislation under
which it is made. If the parent act, which
empowers the administration to form
necessary rule, bye laws, regulations or any
form of delegated legislation, itself
unconstitutional or Ultra vires the
constitution, delegated legislation made
under it is necessarily bad and will be ipso
facto invalid. The parent act may be
unconstitutional on the ground breach of
fundamental rights, other constitutional
provisions and on the ground of excessive
delegation.
The supreme court of Nepal under the,
constitution has the power to declare the
inconsistent laws void either ab initio or,^
from the date of its decision but mostly it_
^declares the inconsistent laws void from the
date of its decision by calculating their]
pragmatic values.1
2. Delegated legislation ultra vires
the constitution*
Like the parent act delegated legislation may
be challenged on the ground of its
constitutionality. Sometimes, parent act may
not be formed unconstitutional but delegated
legislation made under it may conflict with
the constitution^The courts may be asked tcj
consider the question of constitutionality of
delegated legislation itself.

3

Delegated legislation is ultra vires the
parent actp?he validity of delegated legislation can be
questioned on the ground that it is ultra
ivires the, parent actj It has become an
accepted principle of law that the delegated
exercise of legislative power must be
exercised in conformity with the principal
power or authority. If delegated legislation
does not conform exactly to the power
granted or if it is in direct conflict with any
provision of Act, under which it is made, it
can be held invalid. Rules whether made
under the constitution or a statute, must be
intra vires the parent law under which
power has been delegated. Thus, delegated
legislation, repugnant to or in excess of or
overriding the provision of parent act is ultra
vires.
Delegated legislation Ultra vires the General
rule*
The validity of delegated legislation can be
challenged on the ground that it is ultra
vires the general law. It takes place, when
the delegated legislation makes a law in
force unlawful and unlawful act lawful.
Unreasonableness1
Generally, statute cannot be challenged o3
J;he ground of unreasonableness. But, irl
exceptional cases, it can be challenged on the
ground of unreasonableness.
Mala fide-*
Mala fide means 'bad faith’ or ulterior
motive. Delegated legislation can be
challenged on the ground of mala fide, if it
has no relation to the purpose for which the
lawmaking power was delegated. But in
practice, it is extremely difficult to
substantiate these grounds before the court.
Excessive DelegationA statute which is invalid on account of
excessive delegation, or delegated legislation
which is ultra vires the statute, will not
cease to be so merely because the legislature
has made certain amendment to the statute
not directly curing the defect.
4

1. Sub-delegationIf the Executive i.e., the delegate further
delegates such power to any subordinate
authority or agency it is called sub­
delegation. The principle of sub-delegation is
subject to criticism and not accepted, unless
there is a provision express as implied, to
that effect. Hence, the validity of an act
under sub-delegation can be questioned ultra
vires.
2. Procedural Ultra ViresIf the administrative authority fails to follow
required procedure prescribed by parent act
or by the general rule, it is known as______
procedural ultra vires. To apply the doctrine
jof Ultra vires, the first question for thej_
pourts to decide is whether the provision in
jthe act prescribing the procedure is
mandatory or directoryJ Rules become
invalid only in the case of non-compliance
with the mandatory procedure.
Noncompliance of directory procedure does
not render them invalid. So, an absolute
enactment must be obeyed or fulfilled exactly
but it is sufficient if directory enactment be
obeyed or fulfilled substantially. Basically,
non-compliance of following procedure
declares delegated legislation void.
Court issued a directory order in the name of
the electricity authority to necessarily
perform the task of publication for the
purpose of Bye Law 22 and 27(1) of the said
Bye-Laws.
pourt may exercise jurisdiction in the]
interests of justice.
The first factor is whether the person
seeking to invoke Writ jurisdiction has clean
hands. That is whether the petitioner has
engaged in inequitable or illegal behavior.
The conduct of parties during Writ
proceedings if the parties conduct during the
proceedings is inequitable or illegal.
That is whether the person seeking relief has
acted diligently or whether there has been
an inordinate delay on his or her part.
5

The rule of exhaustion of a remedy before
invoking jurisdiction under Article 226 has
been characterized as a rule of policy,
convenience and discretion rather than a
rule of law, as per decision of the Supreme
Court in State of Uttar Pradesh v Md. Nooh
(AIR 1958 SC 86) and Baburam Prakash
Chandra Maheshwari v Antarim Zila
Parishad (AIR 1969 SC 556).
The rule has been justified on the ground
that persons should not be encouraged to
circumvent the provisions made by a statute,
providing for a mechanism and procedure to
challenge administrative or quasi-judicial
actions taken thereunder (Union of India v
TR Varma (AIR 1957 SC 882)).
The Income-tax Act is a code in 3 itself as
regards legal remedies too. Against
impugned orders, petitioners have effective
and comprehensive legal remedies by way of
appeal under section 246(l)(i) of the Act,
further second appeal to the Income-tax
Appellate Tribunal, a reference to the High
Court and further appeal to the Supreme
Court. Article 226 is not meant to circumvent
statutory legal remedies. It is quite often
held and reiterated by Courts that ordinarily
the High Court should not entertain writ
applications filed, bypassing the statutory
legal remedies, where violation of
fundamental rights is not involved.
At times it becomes necessary for the Court
to remind itself about the self-imposed
restraints and limitations in exercise of the
power granted to the Court by the
Constitution under Article 226. The Court
can take judicial notice of the fact that large
numbers of writ petitions are filed in the
High Court by persons without exhausting
statutory alternative remedies or other
remedies available to them.
Further, what can be gathered from the
decisions of the Supreme Court in U P Jal
Nigam v Nareshwar Sahai Mathur (l SCC
21); Titaghur Paper Mills Co. Ltd. v State of
Orissa (142 ITR 663) and HB Gandhi v Gopi
Nath and Sons ((1990) 77 STC l) is that
6

where statutory remedies are available or a
statutory Tribunal has been set up, a
petition under Article 226 should not be
entertained, unless the statutory remedies
are ill'suited to meet the demands of any
extraordinary situation, for example, where
the very vires of the statute is in question, or
where private or public wrongs are so
inextricably mixed up and the prevention of
public injury and the vindication of public
justice require that recourse should be had to
Article 226; or where the alternative remedy
is onerous or burdensome or inadequate; or
where it involves inordinate delay or is
illusory in nature; where the impugned
action is palpably wrong or goes to the root of
the jurisdiction or where there is total lack of
jurisdiction in the authority.
It is quite often stressed by Courts that
judicial review is not against a decision!
under attack but against the decision-]
making process,.
Likewise, the existence of an alternative
remedy is not an absolute bar to the issue of
a writ of certiorari; and a writ of mandamus
would not be refused merely because the
assesses could have filed a suit. A writ of
prohibition or mandamus may be issued to
restrain recovery proceedings in pursuance
of an assessment order made without or in
excess of jurisdiction, even if such a plea as
to jurisdiction was not raised in the
assessment proceedings.
...No other Court subordinate to High Court
has got the power to issue such prerogative
writs... Under Article 226 of the Constitution
of India, the High Court has got the power,
throughout the territories in relation to
which it exercises its jurisdiction, to issue to
any person or authority, including in
appropriate cases, any Government, within
those territories, directions, orders or writs
including writs in the nature of habeas
corpus, mandamus, prohibition, quo
warranto and certiorari or any of them for
the enforcement of fundamental rights
7

conferred by Part III of the Constitution and
for any other purpose. In fact, the power of
the High Court to issue writs is larger than
that of Hon*ble Supreme Court as Hon*ble
Supreme Court can issue writs under Article
32 of the Constitution of India in cases where
the fundamental rights of a person have
been violated, whereas the High Court can
issue writs in respect of the violation of
fundamental rights or in respect of cases
where the legal rights of the persons have
been jeopardized. Article 226 read as under*
Article 226 - Power of High Courts to issue
certain writs.
Article 227 ■ Power of Superintendence over
all courts by the High Court.
The Public Interest Litigation has opened
new gates for the litigants to invoke the
jurisdiction of the High Court. Now, any
public-spirited person or a social activist
group can invoke the jurisdiction of the High
Court by filing a Public Interest Petition. The
filing of these petitions is now regulated by
the Rules farmed by the High Court. The High
Court has also exercised jurisdiction on the
basis of news items published in the
newspapers and on the basis of the letters
written by the aggrieved persons to it.
Appellate and Revisional Jurisdiction
...As per Section 100 of the Code of Civil
Procedure, an aggrieved party can file an
appeal to the High Court from every decree
passed in appeal by any court subordinate to
the High Court, if the High Court is satisfied
that the case involves a substantial question
of law. Section 100 of the Code of Civil
Procedure reads as under* *
Section 100 - Second appeal.
Even under the fiscal statutes, such as
Income-tax Act, the High Court exercises
appellate jurisdiction. Section 260 A of the
Income-Tax Act, 1961 confers the right of an
appeal against any order passed in appeal by
the Income Tax Appellate Tribunal, if the
High Court is satisfied that the case involves
a substantial question of Law.
8

Further, under Section 115 of the Code of
Civil Procedure, the High Court may call for
the record of any case, which has been decided
by any court subordinate to the High Court
and in which no appeal lies thereto, if it
appears to the High Court that the
subordinate court has exercised a jurisdiction
not vested in it by law or has failed to exercise
the jurisdiction so vested or has acted in the
exercise of its jurisdiction illegally or with
material irregularity. The High Court can a
withdraw any suit, appeal or other proceeding
pending in any court subordinate to it and try
or dispose of the same or transfer the same for
trial or disposal to any court subordinate to it
and competent to try or dispose of the same or
re-transfer the same for trial or disposal to the
court from which it was withdrawn. Section
115 of the Code of Civil Procedure is as under115. Revision.
(1) The High Court may call for the record of
any case which has been decided by any
Court subordinate to such High Court and in
which no appeal lies thereto, and if such
subordinate Court appears (2) Provided that the High Court shall not,
under this section, vary or reverse any order
made, or any order deciding an issue, in the
course of a suit or other proceeding, except
where the order, if it had been made in favor
of the party applying for revision, would
have finally disposed of the suit or other
proceedings.
Subordinate Civil Courts
The Punjab Courts Act, 1918 determines the
jurisdiction of the civil courts subordinate to
the High Court. The said Act has been
amended from time to time by the present
States of Punjab and Haryana. The Union
Territory of Chandigarh generally adopts the
Laws enacted by State of Punjab under the
Provisions of Punjab Reorganization Act,
1966. The civil judges in the States of Punjab,
Haryana and Chandigarh have unlimited
pecuniary jurisdiction i.e., that any suit of any
value can be instituted before the civil judge.
The District Judges including Additional
9

District Judges have power to hear appeals
against the judgment and decree granted by
civil judges under the Code of Civil Procedure.
However, certain statues confer jurisdiction of
first appeal before the High Court as well. The
High Court has power to interfere with the
judgment and decree if the civil court in
second appeal if the findings recorded give
rise to substantial question law.

10

INTEREST OF APPELLANT1

Appellant disagrees with many issues, but share
the belief—informed by experiences—nominal
damages play a critical role in preserving plaintiffs’
ability to vindicate constitutional rights and to
challenge unconstitutional government policies. This
case involves petitioner seeking a ruling on the
constitutionality of a university speech policy that the
school applied to restrict their First Amendment
rights, then changed mid-litigation. But the question
presented implicates civil-rights litigants’ ability to
vindicate constitutional rights of every kind—the
rights to speak, to worship, and to be free from
compelled worship; rights to be free from unjust
searches and excessive force; and rights to freedom of
association and equal protection of the laws, among
others.
Based on appellants experience, a ruling that
nominal-damages claims are insufficient to prevent a
case from becoming moot will substantially

1 Appellant affirm that no counsel for any party authored this
brief in whole or in part and that no counsel or party made a
monetary contribution intended to fund the preparation or
submission of this brief. No person other than
appellant/petitioner, made a monetary contribution to its
preparation or submission. No blanket consents filed. No oral
argument because appellant cannot afford to come before the
government since the matter is about the government not issuing
funds for finality of litigation case.

(i)

1

r

2

undermine civil rights plaintiffs' ability to protect
their constitutional rights.

SUMMARY OF ARGUMENT
Similar dynamics play out in a wide range of civil
rights suits. When confronted with legal challenges to
unconstitutional or illegal policies, governments often
respond by changing those policies, and then contend
that the cases are moot. If that governmental action
ended the case, plaintiffs would obtain incomplete
relief. The government would stop violating their
rights going forward. |But courts would be unable to
remedy the real but often difficult'to’quantify harms
that plaintiffs already suffered'. The same scenario
would recur for litigants whose entitlement to
prospective relief becomes moot for other reasons, like
prisoners’ completion of their sentences or students’
graduations.
Plaintiffs’ ability to plead nominal damages to
account for the harms associated with past
constitutional violations acknowledges that plaintiffs
have suffered real injuries from alleged violations of
fundamental rights, regardless of whether their
injuries readily translate into dollar amounts.
Nomina] damages thus play a key role in vindicating
rights and holding governments accountable for
unconstitutional policies.
ARGUMENT
I. Nominal Damages Afford Retrospective Relief for
Hard’tO'Quantify Harms
1. Claims that the government has deprived
plaintiffs of their constitutional rights involve
quintessential injuries that satisfy Article III
standing requirements. “[I]ntangible injuries can

3

nevertheless be concrete.” Spokeo, Inc. v. Robins, 136
S. Ct. 1540, 1549 (2016). Thus, this Court has held in
myriad contexts that alleged constitutional violations
constitute injuries-in-fact. E.g., Gill v. Wbitford\ 138
S. Ct. 1916, 1929 (2018) (‘“[Vloters who allege facts
showing disadvantage to themselves as individuals
have standing to sue’ to remedy that disadvantage.”);
Ne. Fla. Chapter of Associated Gen. Contractors v.
City of Jacksonville, 508 U.S. 656, 666 (1993) (“The
‘injury in fact’ in an equal protection case ... is the
denial of equal treatment resulting from the
imposition of [a] barrier, not the ultimate inability to
obtain [a] benefit.”); Carey v. Piphus, 435 U.S. 247,
266 (1978) (“[E]ven if [respondents] did not suffer any
other actual injury, the fact remains that they were
deprived of their right to procedural due process.”);
Elrod v. Burns, 427 U.S. 347, 373 (1976) (‘The loss of
First Amendment freedoms, even for minimal periods
of time, unquestionably constitutes irreparable
injury.”); Sch. Dist. ofAbington Twp. v. Schempp, 374
U.S. 203, 224 n.9 (1963) (“The parties here are school
children and their parents, who are directly affected
by the laws and practices against which their
[Establishment Clause] complaints are directed,” and
“[t]hese interests surely suffice to give the parties
standing to complain.”). It is hard to imagine how the
law could be otherwise. The premise of plaintiffs’ suits
is that the government has deprived someone of the
basic rights that our political system guarantees. If
that injury is not actual and concrete, nothing is.
Many constitutional violations are of paramount
significance but difficult to reduce to dollars and cents.
“Unlike most private tort litigants, a civil-rights
plaintiff seeks to vindicate important civil and
constitutional rights that cannot be valued solely in
monetary terms.” City ofRiverside v. Rivera, All U.S.
561, 574 (1986) (plurality op.). Take the loss when the
government forces individuals to engage in ten
minutes of involuntary worship, or silences speech on
a particular day, or engages in a fleeting but

4

unconstitutional search. The constitutional violation
is gravely important, but often the “plaintiffs
economic injury [is] so minimal as to be essentially
nominal.” Romanski v. DetroitEntm’t, LLC, 428 F.3d
629, 645 (6th Cir. 2005). Or the economic injury may
be so difficult to value that supporting an award of
compensatory damages through expert testimony or
other competent evidence would be prohibitively
expensive.
For centuries, nominal damages have supplied the
answer to this valuation problem- by pleading a dollar
or two, plaintiffs aver that they have experienced
harms that are real, but difficult to value or prove in
monetary terms. Petrs.’ Br. 17. Thus, “[clommoniaw
courts traditionally have vindicated deprivations of
certain ‘absolute’ rights that are not shown to have
caused actual injury through the award of a nominal
sum of money.”
Memphis Cmty. Sch. Dist. v.
Stachura, 477 U.S. 299, 308 n.ll (1986); see Carey;
435 U.S. at 308 n.ll (1978) (same).
Nominal damages therefore perform a critical
function. Plaintiffs who allege an actual harm in the
form of a constitutional violation need not adduce the
type of evidence of particular costs, expenses, or losses
attributable to that violation, as would be the case for
proving compensatory damages. Nominal damages
substitute for compensatory damages, avoiding the
need to calculate “damages based on some imdefinable
‘value’ of infringed rights” by allowing plaintiffs to
recover without particularized proof of pecuniary
harm. Stachura, All U.S. at 308 n.ll; see Carey; 435
U.S. at 251-52 (similar); Petrs.’ Br. 18-19. Put another
way, “[a]n award of nominal damages does not mean
that there were not actual economic damages, just
that the exact amount of damages attributable to the
improper conduct was not proven.” 25 C.J.S. Damages
§ 24 (2020).
For some plaintiffs, nominal damages may be the
only form of monetary relief available. Prisoners

5

cannot recover compensatory damages “for mental or
emotional injury suffered while in custody without a
prior showing of physical injury or the commission of
a sexual act.” 42 U.S.C. § 1997e(e). Nominal damages
are thus often the only monetary relief prisoners can
seek to vindicate their constitutional rights.
Because nominal damage is designed to
compensate for actual past harms, it follows that a
case seeking nominal damages remains live even if the
government changes the challenged policy going
forward.
To be sure, that change may moot
prospective relief if the plaintiff will never again face
the same unconstitutional policy, and the government
is unlikely to resume its challenged practice. E.g.t
City ofLos Angeles v. Lyons, 461 U.S. 95, 109 (1983).
But that change does not remedy the past violation
that the plaintiff experienced.
That nominal-damages awards involve only small
sums of money is irrelevant. A live Article III
controversy requires only “a dollar or two.” Sprint
Commc’ns Co. v. APCC Servs.y 554 U.S. 269, 289
(2008); see Mission Prod. Holdings v. Tempnology,
LLQ 139 S. Ct. 1652, 1660 (2019). That is because an
award of damages, “whether compensatory or
nominal,” alters the legal relationship between the
parties and “modifies the defendant’s behavior for the
plaintiffs benefit by forcing the defendant to pay an
amount of money he otherwise would not pay.” Farrar
v. Hobby,; 506 U.S. 103, 113 (1992). “As long as the
parties have a concrete interest, however small, in the
outcome of the litigation, the case is not moot.” ChaGn
v. Chafin, 568 U.S. 165, 172 (2013); Petrs.’ Br. 22-23.
2. The rule that nominal damages allow plaintiffs
to continue litigating past constitutional wrongs also
makes eminent sense. “Nominal relief does not
necessarily a nominal victory make.” Farrar,; 506 U.S.
at 121 (O’Connor, J., concurring).
“While the
monetary value of a nominal damage award must, by
definition, be negligible, its value can be of great

6

significance to the litigant and to society.” Amato v.
City of Saratoga Springs, 170 F.3d 311, 317 (2d Cir.
1999). “Regardless of the form of relief he actually
obtains, a successful civil-rights plaintiff often secures
important social benefits that are not reflected in
nominal or relatively small damages awards.” Rivera,
477 U.S. at 574 (plurality op.).
Many civil-rights litigants thus place great
significance on even a nominal recovery. Take Dennis
Ballen, who successfully sued the city of Redmond,
Washington, after the city tried to apply its sign code
to stop him from advertising his bagel business using
sidewalk signs.
Ballen argued that the sign
ordinance—which arbitrarily privileged some types of
speech over others—violated the First Amendment.
The court agreed. Ballen undoubtedly suffered some
economic harm from diminished traffic to his store due
to his inability to advertise. But because his harm was
difficult to value, he decided not to seek compensatory
damages, and instead sought—and obtained— one
dollar in nominal damages.
Ballen v. City of
Redmond, 466 F.3d 736, 741 (9th Cir. 2006). Ballen
now prominently displays the dollar bill, framed,
above his shop’s counter. Or take Eon Shepherd, a
prisoner who successfully recovered one dollar when
guards unconstitutionally touched and tore at his
dreadlocks, violating his Rastafarian beliefs and the
Free Exercise Clause. Notwithstanding the small
award, Shepherd was “really satisfied because I feel
like I’ve been vindicated.” NYlawyer gets paid $1.50
for civil rights victory,; N.Y. Post (Dec. 3, 2011).
Further, by preventing governments from
terminating civil-rights cases prematurely, nominaldamages claims produce rulings that mark the path
for government actors, helping them avoid future
violations. Petrs.’ Br. 20. The availability of nominal
damages “guarantee[s] that a defendant’s breach” of a
plaintiffs rights “will remain actionable regardless of
[its] consequences in terms of compensable damages.”
Amato, 170 F.3d at 318. Otherwise, governments

7

could freely implement illegal policies, as long as
governments rescind those policies before a ruling on
the merits.
The government may defend
unconstitutional policies on the merits against pro se
plaintiffs, where it is likely to win, but then relent and
moot the litigation when it faces sophisticated counsel
and is likely to lose. This risk is particularly acute in
prison litigation, where the government has
significant discretion over when and how it will
modify its policies. See Joseph C. Davis & Nicholas R.
Reaves, The Point Isn't Moot• How Lower Courts
Have Blessed Government Abuse of the VoluntaryCessation Doctrine, 123 Y.L.J. Forum 325, 329-30
(Nov. 26, 2019) (hereinafter, Davis & Reaves).
By preventing the government from changing
challenged policies to moot cases, nominal-damages
claims also mitigate the government’s ability to game
its way into maintaining qualified immunity. Petrs.’
Br. 37-39. A rule requiring courts to dismiss nominaldamages claims as moot prevents the development of
“clearly established” law that would allow plaintiffs to
hold government officials accountable for violating
constitutional rights. That is especially true because,
to defeat qualified immunity, plaintiffs must identify
either “controlling authority^’ or “a robust consensus of
cases of persuasive authority’ that “placed the
statutory or constitutional question beyond debate.”
Ashcroft v. al-Kidd\ 563 U.S. 731, 741-42 (2011). And
those authorities must make clear that “the violative
nature of particular conduct is clearly established . . .
in fight of the specific context of the case.” Mullenix v.
Luna, 136 S. Ct. 305, 308 (2015) (per curiam). If
government actors could unilaterally moot cases by
amending official policies before a ruling on the
merits, the government could perennially thwart the
development of this “controlling authority.”
Government officials, too, may benefit from
adjudication of nominal-damages claims. In a case
challenging civil-forfeiture policies, state and county
officials successfully argued that the case was not

8

moot based on the plaintiffs’ nominal-damages claims,
and the court ultimately held that the officials were
not subject to section 1983 liability. Platt v. Moore,
2018 WL 2058136, at *2 (D. Ariz. Mar. 15, 2018).
Thus, a ruling on the merits of a nominal damages
claim can clarify the legality—as well as the
illegality—of governmental action.
Finally, a civil-rights plaintiff who recovers
nominal damages is a prevailing party under 42
U.S.C. § 1988 and may be entitled to an award of
attorneys’ fees. Of course, if the award is nominal,
courts may consider the small amount of the award as
“hearting! on the propriety of fees awarded under §
1988.” Farrar; 506 U.S. at 114; see, e.g., Citizens for
Free Speech, LLC v. Cty. of Alameda, 2017 WL
912188, at *9-10 (N.D. Cal. Mar. 8, 2017) (awarding
only 20% of requested fees in light of nominaldamages award); Talley v. District of Columbia, 433
F. Supp. 2d 5, 9-10 (D.D.C. 2006) (denying fee request
in light of nominal nature of damages); Petrs.’ Br. 4849.
But Congress provided for attorneys’ fees
precisely because the ability to obtain fees is often an
important incentive for lawyers to take suits on behalf
of plaintiffs who could not otherwise afford toj
'vindicate their rights] [And the availability of
attorneys’ fees may deter governmental actors from!
unconstitutional conduct in the first place-1
3. The Ninth Circuit’s contrary rule improperly
dismisses nominal damages as a legal nullity, and
thus confuses whether a plaintiff has suffered a
remediable harm with whether the plaintiff has
suffered a readily quantifiable one. The Ninth Circuit
believed that because nominal damages are a “trivial
sum,” they must be “awarded for symbolic, rather
than compensatory, purposes.” Flanigan's Enters, v.
City ofSandy Springs, 868
F.3d 1248, 1268 (9th Cir. 2017) (en banc). But the
question is whether nominal damages are a remedy of

9

any sort, not how precisely they actually compensate
alleged harms.
The notion that damages must be readily
calculable or must fully compensate plaintiffs for the
harm they have suffered to satisfy Article III is plainly
incorrect. In several statutory schemes, for example,
statutory damages serve the same remedial purpose
as nominal damages, giving plaintiffs “some
recompense for injury due to [them], in a case where
the rules of law render difficult or impossible proof of
damages or discovery of profits.”
Douglas v.
Cunningham, 294 U.S. 207, 209 (1935) (statutory
damages under Copyright Act of 1909). In other civil
cases, “it is the function of liquidated damages to
provide a measure of recovery” when the damages
resulting from an injury “may be difficult or
impossible to ascertain.” Rex Trailer Co. v. United
States, 350 U.S. 148, 153-54 (1956). No one would
argue that a plaintiffs entitlement to only these forms
of monetary relief, rather than full compensatory
damages, renders a claim nonjusticiable. From the
standpoint of Article III, there is no principled
difference between liquidated, statutory, and nominal
damages.
The Ninth Circuit’s approach also encourages
absurd results. In Freenor v. Mayor & Alderman of
Savannah, for example, Eleventh Circuit precedent
foreclosed plaintiffs’ argument that a nominaldamages claim saved their First Amendment
challenge to a repealed tour-guide licensing
ordinance. 2019 WL 9936663 (S.D. Ga. May 20, 2019).
But two of the plaintiffs had also pleaded $10 in
compensatory damages, reflecting the amount that
they had paid for their tour-guide licenses under the
old regime. The court expressed “concern” that
“Plaintiffs’ request for $10 in compensatory damages
is simply an alternative way to plead nominal
damages.” Id. at *7. But because those two plaintiffs
sought “retrospective compensatory damages in
addition to the nominal damages pled by all

10

Plaintiffs,” the court deemed the case not moot. Id. at
*7. All four plaintiffs, however, suffered the same
constitutional harm—infringement of their right to
speak to members of the public about the history of
Savannah. By holding that two plaintiffs could obtain
redress because they also paid $10 for licenses, but the
other two plaintiffs could not because their only harm
was having their speech chilled, the Ninth Circuit
missed the forest for the trees.
More broadly, the Ninth Circuit's approach
arbitrarily treats similarly situated plaintiffs
differently depending on semantic differences in their
pleadings. Petrs.’ Br. 42*43. Some plaintiffs might
characterize damages as “compensatory,” which
would allow them to avoid mootness under the Ninth
Circuit’s rule. E.g., Nelson v. Miller., 2011 WL
6400524, at *3 (S.D. Ill. Dec. 19, 2011) (characterizing
as “actual damages” a $10 per day award to Catholic
prisoner who received inadequate nutrition during
Lent due to prison policy refusing meat*free meals).
Others might include in their complaint only a general
claim for relief, without distinguishing the nature of
the damages they seek. Still others might plead a
request for compensatory damages in their complaint,
without any real intention to prove a precise measure.
The underling constitutional injury would be the
same, as would the relief (some form of damages).
And in still other cases, courts may award nominal
damages on finding a constitutional violation even if
the plaintiffs did not specifically request them. E.g.,
Searles v. Van Bebber.; 251 F.3d 869, 879 (10th Cir.
2001) (“an award of nominal damages is mandatory
upon a finding of a constitutional violation”); Risdal v.
Halford, 209 F.3d 1071 (8th Cir. 2000) (plain error to
give the jury discretion not to award nominal damages
on a finding of a violation of free-speech rights). But
these groups of plaintiffs could face wildly varying
outcomes should governmental actors change the
challenged policy in response to litigation. This Court
should reject the Ninth Circuit’s unprincipled

11

approach, which would unjustifiably compromise
civil-rights plaintiffs’ ability to vindicate their
constitutional claims.
II. Cases Involving Nominal Damages are Ubiquitous,
and Illustrate the Critical Role Such Damages
Play in Vindicating Rights
Jettisoning the longstanding rule that nominaldamages claims allow plaintiffs to continue seeking
redress for past constitutional violations even when
governments repeal the challenged policy would also
compromise plaintiffs’ ability to vindicate all sorts of
constitutional rights. The sheer volume of cases
involving this fact pattern illustrates the point across
myriad constitutional claims. Indeed, the Court faced
this issue in the Second Amendment context just last
Term.
The following cases illustrate how often plaintiffs’
access to justice hinges on the availability of nominal
damages. The postures of these cases differ; in some
cases, courts assessed whether plaintiffs’ nominaldamages claims could proceed at the pleadings stage;
in others, courts resolved the cases on the merits.
Amici may disagree as to whether particular cases
involved meritorious claims. But all agree that the
nominal-damages claims matter, that these claims are
not mere artifices to produce advisory opinions, and
that plaintiffs pursuing nominal damages deserve
their day in court.
1. Second Amendment. In January 2019, the
Court granted review of whether New York City’s
ordinance prohibiting residents from carrying
firearms to out - of city gun ranges, competitions, or
second homes
violated petitioners’
Second
Amendment rights. Shortly thereafter, New York
City “quickly changed its ordinance,” and New York
State “enacted a law making the old New York City
ordinance illegal.” N. Y. State Rifle & Pistol Ass*n v.
City of New York, 140 S. Ct. 1525, 1527-28 (2020)

12

(Alito, J., dissenting).
While the law barred
petitioners from transporting their arms in the past,
they sought only prospective relief.
The Court
dismissed the case as moot because petitioners did not
seek even nominal damages, which multiple members
of the Court acknowledged . would have kept
petitioners* Second Amendment claims alive. Id. at
1526-27 (per curiam op.); id at 1540 (Alito, J.,
dissenting).
2. Freedom: of Speech. First Amendment cases in
which governmental ' actors unconstitutionally
abridge plaintiffs’ free-speech rights and then change
the challenged ,policies or ordinances are legion.
These cases involve plaintiffs along all points of the
political spectrum.
Start .with content-based speech restrictions, i.e.,
speech restrictions that privilege certain views or
subjects above others. State" and local governments
have targeted everything from panhandling to
erecting yard signs supporting George W. Bush. Some
universities have disfavored pro-life student groups’
messages by forcing those groups alone to post signs
in deserted areas; other universities have disrupted
student groups’ programming by citing fears of
offending Christian students. Localities have tried to
silence residents’ attempts to place ‘‘For Sale” signs in
their parked vehicles because of .opposition' to
encouraging that kind of commercial activity. A pro­
life protestor of Planned Parenthood, a prisoner trying
to send his mother drawings featuring partially nude
women and marijuana leaves, and a volunteer trying
to register voters all alleged differential treatment at
the hands of governmental actors solely because of the
content of their: speech. The plaintiffs in these cases
hailed from all over the country and all walks of life,
but all sued to vindicate the same principles1 the

14

unlawful prior restraints—whether those plaintiffs
are
strip-club
owners
challenging licensing
requirements, animal-rights activists denied a timely
decision on their permit for a planned protest, or
university students and faculty required by university
policy to pre-clear communications with prospective
student-athletes. In one instance, an elementary
school mandated that students submit for prior
approval materials they wanted to distribute,
including Christian students who sought to give out
“pencils inscribed with ‘Jesus is the reason for the
season”’ and “candy canes with cards describing their
Christian origin.”3
___In all of those cases, when challenged]
governmental actors tried to change their policies in
order to moot the litigation.] Plaintiffs challenging
such prior restraints suffer real but difficult-to*
quantify harms, making compensatory damages an
inapt remedy. As the Seventh Circuit explained, “this
is exactly the situation for which nominal damages are
designed.”
Six Star Holdings, LLC v. City of
Milwaukee, 821 F.3d 795, 805 (7th Cir. 2016).
Without nominal damages, plaintiffs would obtain no
remedies for the difficult-to-value harms they already

3 Six Star Holdings, LLC v. City ofMilwaukee, 821 F.3d 795, 799*
800 (7th Cir. 2016) (strip club owner challenging licensing
scheme)> Clarkson v. Town ofFlorence, 198 F. Supp. 2d 997,1016
(E.D. Wis. 2002) (similar)} Utah Animal Rights Coal. v. Salt Lake
City Corp., 371 F.3d 1248, 1250 (10th Cir. 2004) (animal-rights
activists challenging permit ordinance); Crue v. Aiken, 370 F.3d
668, 674 (7th Cir. 2004) (university faculty seeking to share
concerns about university mascot, “Chief IUiniwek”); Morgan v.
Plano Indep. Sch. Dist, 589 F.3d 740, 748 (5th Cir. 2009)
(Christian students barred horn distributing pencils, candy
canes, "tickets to a church's religious musical programs, and
tickets to a dramatic Christian play”); accord Miller v. City of
Cincinnati, 622 F.3d 524, 533 (6th Cir. 2010) (anti-spending
group seeking to hold political press conference in city hall).

15

suffered, and governments could re-enact similar,
unconstitutional policies with impunity.
3. Free Exercise and Establishment Clauses.
Both religious and secular plaintiffs often challenge
government policies under the First Amendment,
bringing lawsuits alleging violations of the Free
Exercise Clause, the Establishment Clause, the
Religious Freedom Restoration Act, and the Religious
Land Use and Institutionalized Persons Act. In these
contexts, too, governments often respond by amending
their policies and arguing the challenges are moot. As
in the free*speech context, nominal damages allow
plaintiffs to remedy the intangible harms they already
suffered—whether those harms involved being
compelled to refrain from practicing their faiths, or
being subjected to impermissible state support for
religion.
For instance, prisons have refused to
accommodate prisoners who seek kosher diets
consistent with their religious beliefs. Another prison
rejected an inmate’s request for non-meat meals on
Fridays and during Lent, prompting the inmate to
abstain from eating the meat in his standard prison
meals, and his weight “dropped as low as 119 pounds.”
When the prison attempted to moot the case three
years into the litigation by offering the individual
inmate a diet compatible with his faith, the Seventh
Circuit refused to dismiss the case. Putting a price on
having to “forego adequate nutrition on Fridays and
for the forty days of Lent in order to comply with his
sincerely held religious beliefs” might be
challenging—but there was still “a substantial burden
on his religious exercise,” and damages claim for that
retrospective harm kept the case alive.4

4 Nelson v. Miller, 570 F.3d 868, 880, 882 (7th Cir. 2009)
(Catholic inmate seeking non-meat meals on Fridays and during
Lent)> see also Rich v. Fla. Dep't of Corr., 716 F.3d 525, 532 (llth

16

Similarly, in the Establishment Clause context,
plaintiffs in Slidell, Louisiana, challenged a display in
the foyer of the City Court that depicted “Jesus Christ
presenting the New Testament of the Bible,” with
large wording underneath reading “To Know Peace,
Obey These Laws.” Doe v. Par. ofSt Tammany,; 2008
WL 1774165, at *1 (E.D. La. Apr. 16, 2008). Shortly
thereafter, the government “changed the display5 to
contain “various historical lawgivers” alongside Jesus
Christ, and argued that the suit was moot. Id. But by
then, the plaintiffs had already suffered the harms
associated with the unwanted religious display.
Nominal damages again allowed plaintiffs to vindicate
that difficult-to-value harm. Id. at *5.
4. Fourth Amendment. Likewise, when official
search-and-seizure policies violate plaintiffs’ Fourth
Amendment rights, nominal damages prevent
governments from mooting the claims by changing or
repealing the challenged policies, and enable
plaintiffs to seek redress for past harms. The city of
Flint, Michigan, subjected rental properties to its
Comprehensive Rental Inspection Code, which
allowed city inspectors to enter rental units without
permission and penalized property owners who
refused inspections.
Karter Landon, one such
property owner, sued and alleged that the Code
unconstitutionally subjected him to warrantless
searches under the threat of fines and other penalties
if he did not consent. The city responded by amending
its Code and argued that Landon’s case was moot.
The harm from an unconstitutional search does not
lend itself to ready monetary valuations. But because
Landon sought “nominal damages as a remedy for
past wrongs,” the district court allowed his claim to go
forward. Landon v. City ofFlint, 2017 WL 2806817,
at *3, *6 (E.D. Mich. Apr. 21, 2017), report and

Cir. 2013) (prisoner seeking kosher diet); Davis & Reaves, supra,
at 329 (collecting similar cases).

17

recommendation adopted, 2017 WL 2798414 (E.D.
Mich. June 27, 2017).
5. Due Process Clause. Allowing governments to
moot cases despite nominal-damages claims would
also prevent plaintiffs from remedying due-process
harms that government policies inflicted. As with
other constitutional claims, the government’s
violation of a citizen’s procedural due-process rights
involves real, past injuries that are difficult to
quantify. After the City of Costa Mesa towed Sidney
Soffer’s car and he was “[ulnwilling or unable to pay
the towing fee,” he sued the city for failing to provide
an adequate hearing to challenge the city’s decision to
tow his car. The city amended the relevant ordinance,
but Soffer’s due-process claim survived and ultimately
succeeded. The court awarded nominal damages of
one dollar “IbJecause due process rights are
‘absolute,’” and the prior ordinance violated his right
to adequate procedural protections. Softer v. Costa
Mesa, 607 F. Supp. 975, 977 (C.D. Cal. 1985), affd798
F.2d 361 (9th Cir. 1986).5
III. Nominal Damages Allow Plaintiffs to Remedy
Retrospective Harms in Cases That Become
Moot on Other Grounds
Because nominal damages remedy retrospective
but difficult-to-quantify harms, nominal-damages
claims also preserve plaintiffs’ ability to vindicate
constitutional rights in cases were other intervening
developments moot plaintiffs’ claims for prospective
relief.

5 Similarly, nominal damages allow inmates an opportunity to
vindicate their procedural due-process rights in disciplinary
proceedings, even when prisons seek to moot their claims by
removing the infractions from the inmates’ records. Penwell v.
Holtgeerts, 295 F. App’x

18

• Take cases that students bring to challenge school
policies.
Those policies often outlast individual
students, who graduate by the time their cases work
their way through the courts. Leaving the educational
environment obviates any need for prospective relief.
And the mootness exception for violations “capable of
repetition but evading review” does not apply, because
that doctrine requires “a reasonable expectation that
the same complaining party would b? subjected to the
same action again.” Lewis v. Conti Bank Corp., 494
U.S. 472, 481 (1990).
But the students have nonetheless suffered
wrongs in the pa6t that remain unredressed. For
instance, in Griffith v. Butte School District No. 1, the
school barred valedictorian Renee Griffith from
speaking at graduation because she refused to remove
references to Jesus Christ from her graduation
speech. 244 P.3d 321, 328 (Mont. 2010) (looking to
federal law as instructive on mootness). Graduation
freed her from that restriction, but did nothing to
remedy the harm she suffered by having to forgo
speech. Id. at 200. And in Grimm v. Gloucester
County School Board, — F.3d 2020 WL 5034430 (4th
Cir. Aug. 26, 2020), Gavin Grimm challenged a school
policy requiring students to use restrooms matching
their “biological

877, 878 (9th Cir. 2008); Jones v. Clemente, 2006 WL
782474, at *2 (D.
Or. Mar. 27, 2006).
gender” under the Equal Protection Clause and Title
IX, but graduated before the courts resolved his suit.
Nominal damages again were the only way to
recognize and remedy Grimm’s harms. Id. at *11 &
n.6. And in Mellen v. Bunting, a group of cadets
brought an Establishment Clause challenge to the
mandatory supper prayer at the Virginia Military
Institute. 327 F.3d 355, 362-63 (4th Cir. 2003). Their
graduation did not eliminate the harm they

19

experienced from the “unconstitutional toll” the
supper prayer placed “on the consciences of religious
objectors.” Id. at 371. In all these cases, pleading
nominal damages allowed students to'hold schools
accountable for the harms that school policies imposed
and laid down markers for schools about what the law
requires.
Nominal damages play a similar role in cases
involving pretrial detainees and prisoners. Their
release or transfer to another facility generally moots
their claims for prospective relief. Further, because of
the limitations on compensatory damages claims in 42
U.S.C. § 1997e(e), nominal damages are often the only
relief prisoners can seek to vindicate their
constitutional rights.
Indeed, the availability of nominal damages often
makes all the difference for prisoners to obtain some
recognition that they suffered a constitutional wrong.
In Jessamy v. Ehxen,, 153 F. Supp. 2d 398, 403
(S.D.N.Y. 2001), for example, pretrial detainees
alleged that corrections officers “punched, kicked,
stomped upon, dragged and otherwise physically
abused” them. Prospective relief was no help; the
prison had already released the detainees.
Compensatory damages would have been hard to
establish; while one of the plaintiffs alleged emotional
distress, he stipulated that he would “offer no evidence
of physical injury at trial.” Pleading nominal damages
thus gave the detainees an opportunity to challenge
the injuries they had already suffered, without having
to translate that harm into dollars-and'cents figures
for particular injuries. IdA accord Doe v. Delie, 257
F.3d 309, 314 (3d Cir. 2001) (HIV*positive inmate’s
acquittal on retrial and release mooted claims for
prospective relief in case alleging violations of right to
medical privacy, but not nominal and punitivedamages claims for loss of privacy).
In sum, civil-rights plaintiffs in myriad
constitutional contexts, and of all political persuasions

20

and beliefs, share one common thread: they have
suffered real harms that transcend easy price tags.
Nominal damages are often the only avenue available
to remedy that wrong. And as a form of retrospective
relief, nominal damages allow these plaintiffs to
proceed when governments change their policies going
forward but have not redressed a past wrong, or when
other intervening events make prospective relief
unavailable but leave a past wrong unremedied. The
Ninth Circuit’s outlier rule would upset the
longstanding role that nominal damages have played
in providing concrete redress for past constitutional
injuries, and would enable governmental actors to
evade accountability for their unconstitutional
policies.
CONCLUSION
The judgment of the United States Court of
Appeals for the Ninth Circuit should be reversed.
“I declare (or certify, verify, or state) under penalty
of perjury under the laws of the United States of
America that the foregoing is true and correct.
Executed on (8/6/2021).
(V/Cedle A. Brown)”.
Respectfully submitted,
Cecile A. Brown
Appellant/Petitioner,
Pro Se ofRecord
3222 Violet St Apt. A
Alexandria, LA 71301
(318) 528-o335
browncecile@yahoo. com

August 6, 2021

